Nos. 20-512, 20-520

In the Supreme Court of the United States
__________

NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,
Petitioner,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
__________
AMERICAN ATHLETIC CONFERENCE, ET AL.,
Petitioners,
v.
SHAWNE ALSTON, ET AL.,
Respondents.
__________
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

__________
BRIEF IN OPPOSITION
__________
STEVE W. BERMAN
JEFFREY L. KESSLER
CRAIG R. SPIEGEL
DAVID G. FEHER
EMILEE N. SISCO
DAVID L. GREENSPAN
Hagens Berman Sobol
Winston & Strawn LLP
Shapiro LLP
200 Park Avenue
1301 Second Ave., Ste. 2000 New York, NY 10166
Seattle, WA 98101
LINDA T. COBERLY
BRUCE L. SIMON
BENJAMIN E. SHIFTAN
Pearson, Simon &
Warshaw LLP
350 Sansome St., Ste. 680
San Francisco, CA 94104

Counsel of Record
Winston & Strawn LLP
35 W. Wacker Drive
Chicago, IL 60601
(312) 558-5600
lcoberly@winston.com

[Additional counsel on inside cover]

ELIZABETH C. PRITZKER
JONATHAN K. LEVINE
BETHANY L. CARACUZZO
Pritzker Levine LLP
1900 Powell St., Ste. 450
Emeryville, CA 94608

JEANIFER E. PARSIGIAN
Winston & Strawn LLP
101 California Street
San Francisco, CA 94111

Counsel for Respondents

QUESTION PRESENTED
Whether restraints that competing NCAA member schools have agreed to impose in the name of
“amateurism” should be exempt from challenge under
the antitrust laws, as Petitioners contend, or whether
they are subject to scrutiny under the rule of reason—a fact-based analysis that this Court and the
courts of appeals have uniformly applied to agreements restricting competition among NCAA members
and that the courts below undertook based on the
particular facts established at trial in this case.

ii

TABLE OF CONTENTS
Page
QUESTION PRESENTED .........................................i
INTRODUCTION ........................................................ 1
STATEMENT............................................................... 4
A.

The Business of College Sports and the
NCAA’s Ever-Changing Definition of
“Amateurism” ......................................... 4

B.

District Court Proceedings ................... 10

C.

The Ninth Circuit’s Opinion ................ 14

REASONS FOR DENYING THE PETITIONS ........ 16
I.

The decision below is entirely consistent
with this Court’s precedents. .......................... 16

II.

The decision below does not implicate any
conflict among the Courts of Appeals............. 20

III.

The decision below faithfully applied the
rule of reason framework. ............................... 24

IV.

The decision below turns on fact-bound
conclusions after a lengthy bench trial. ......... 25

V.

The decision below has no implications for
joint ventures. ................................................. 26

VI.

The ongoing legislative efforts in this area
make this case particularly unsuitable for
review. ............................................................. 29

CONCLUSION .......................................................... 31

iii

TABLE OF AUTHORITIES
Page(s)
Cases
Agnew v. NCAA,
683 F.3d 328 (7th Cir. 2012) .............. 20, 21, 22, 23
American Needle v. NFL,
560 U.S. 183 (2010) .......................................passim
Broadcast Music, Inc. v. CBS, Inc.,
441 U.S. 1 (1979) .................................................. 28
Deppe v. NCAA,
893 F.3d 498 (7th Cir. 2018) .................... 20, 22, 23
Law v. NCAA,
134 F.3d 1010 (10th Cir. 1998) ........................ 8, 28
Leegin Creative Leather Prods., Inc. v.
PSKS, Inc., 551 U.S. 877 (2007) .......................... 26
Maple Flooring Mfrs.’ Ass’n v. United
States,
268 U.S. 563 (1925) .............................................. 26
McCormack v. NCAA,
845 F.2d 1338 (5th Cir. 1998) ........................ 20, 21
NCAA v. Board of Regents,
468 U.S. 85 (1984) .........................................passim
NCAA v. O’Bannon,
137 S. Ct. 277 (2016) ............................................ 11

iv
O’Bannon v. NCAA,
802 F.3d 1049 (9th Cir. 2015) .......................passim
Ohio v. American Express Co.,
138 S.Ct. 2274 (2018) ..................................... 24, 25
Race Tires America, Inc. v. Hoosier
Racing Tire Corp.,
614 F.3d 57 (3d Cir. 2010) .................................... 23
Smith v. NCAA,
139 F.3d 180 (3d Cir. 1998) ............................ 20, 21
Other Authorities
Associated Press, Emmert: Ruling
reinforced fundamentals of NCAA,
ESPN (Apr. 4, 2019) ....................................... 13, 14
Br. for NCAA,
O’Bannon v. NCAA,
No. 14-16601 (9th Cir. Nov. 14,
2014), ECF No. 13-1 ............................................... 9
Fairness in Collegiate Athletics Act,
S.4004, § 4(b) (2020) ............................................. 30
Ltr. from Power Five Comm’rs to Cong.
Leadership at 1 (May 23, 2020),
https://assets.documentcloud.org/doc
uments/6933292/Power-Five-letterto-Congress.pdf ..................................................... 29
Petition for Writ of Certiorari,
NCAA v. O’Bannon,
No. 15-1388, 2016 WL 2866087 (U.S.
May 13, 2016) ................................................passim

v
NCAA Board of Governors Federal and
State Legislation Working Group,
Final Report and Recommendations
(Apr. 17, 2020),
https://tinyurl.com/yxq8rtd9 .................................. 9
NCAA Mem. P. & A. in Supp. Summ. J.,
White v. NCAA,
No. 06-cv-999 (C.D. Cal. Oct. 22,
2007), ECF No. 220 ................................................ 9
P. Areeda & H. Hovenkamp, Antitrust
Law: An Analysis of Antitrust
Principles and Their Application,
(4th ed. 2018) ............................................ 22, 23, 26
R. Dellenger, NCAA Presents Congress
with Bold Proposal for NIL
Legislation, SPORTS ILLUSTRATED
(July 31, 2020),
https://www.si.com/college/2020/07/31
/ncaa-sends-congress-nil-legislationproposal ........................................................... 29, 30

INTRODUCTION
The petitions in this case largely repeat arguments the NCAA made in a petition that this Court
denied just a few years ago. In O’Bannon v. NCAA,
802 F.3d 1049 (9th Cir. 2015), the Ninth Circuit upheld a district court’s application of the Sherman
Act’s rule of reason to a particular set of facts, invalidating restraints that the NCAA’s member schools
had agreed to impose on compensation for the use of
student-athletes’ names, images, and likenesses.
Although both sides sought certiorari, this Court denied review. Both petitions in this case discuss
O’Bannon at length.
This case is even less deserving of the Court’s attention. The decision below does not plough any new
legal ground; it applies the same, well-established antitrust standards to a different set of facts—here,
facts relating to restrictions on benefits relating specifically to the student-athletes’ education. As in
O’Bannon, the courts below faithfully followed this
Court’s precedents, including NCAA v. Board of Regents, 468 U.S. 85 (1984), which held that NCAA
rules must be analyzed under the rule of reason. As
in O’Bannon, the NCAA claims a conflict with other
circuits, but a careful analysis shows that no conflict
exists. As in O’Bannon, this case does not concern
how antitrust law might apply to “joint ventures”—a
structure that neither this Court nor the courts below
have found applies to competitor schools within the
NCAA. And—critically—since O’Bannon, Congress
and state legislatures have begun to consider for
themselves the question of player compensation and
benefits in college sports. This legislative effort
makes certiorari especially inappropriate.

2

Since Board of Regents, this Court’s instructions
have been clear: NCAA rules are subject to the rule
of reason. This sensible rule of antitrust law requires
courts to evaluate a restraint in the context of the
market as it actually exists at the time. If a complaint does not plausibly allege an antitrust violation
in a particular market—or if discovery does not reveal any genuine dispute of material fact—the court
may perform the necessary analysis on motions,
without a full-blown trial. But nothing in Board of
Regents requires that a court uphold NCAA rules
without discovery or trial, based simply on the
NCAA’s assertion that those rules are somehow
linked to “amateurism.” That is what Petitioners
seek—a declaration from this Court that such rules
must be upheld “without fact-intensive rule-of-reason
analysis.” NCAA Pet. 19. Board of Regents holds
otherwise.
Indeed, applying the fact-based rule of reason is
even more important today, given how much the facts
have changed since Board of Regents. In the last 36
years, Division I basketball and Football Bowl Subdivision (“FBS”) football have become multi-billiondollar industries. The NCAA and its member conferences and schools receive billions of dollars every
year through the hard work, sweat, and sometimes
broken bodies of student-athletes. Coaches, assistant
coaches, and athletic directors take millions in salaries. Yet the schools have agreed among themselves
to limit what student-athletes may receive for their
work in generating these extraordinary revenues.
The agreements among these schools represent a
classic horizontal restraint of trade—an agreement
among competitors to limit how much they will have
to expend to compete for talent and labor.

3

To be sure, some NCAA rules may be necessary to
protect consumer demand for college sports as a distinct “product.” But as a factual matter, the restraints in this case are not. The trial record shows
that the challenged restraints are cost-cutting
measures, plain and simple, and not reasonably necessary to maintain consumer demand for college
sports. As a result, the district court found that they
constitute unreasonable restraints of trade.
The decisions below are modest in many respects.
They apply only to NCAA restrictions on educationrelated benefits that schools may offer Division I basketball and FBS football players—benefits like computers, science equipment, musical instruments,
post-graduate scholarships, tutoring, study abroad,
academic awards, and internships. In that sense, the
injunction is of great consequence to the studentathletes whose work and sacrifice drive the multibillion-dollar industry that is NCAA Division I football and basketball. But the injunction does not authorize so-called pay for play, which Petitioners argue
would be the end of “amateur” sports. Nor does it require any school to provide these kinds of educationrelated benefits or prevent an individual conference
from restricting such benefits if it chooses. In short,
it simply enables individual schools and conferences
to compete among themselves. There is no reason to
believe that eliminating restraints on educationrelated benefits will “fundamentally transform the
century-old institution of NCAA sports,” as Petitioners claim. NCAA Pet. 5. Petitioners’ sky-is-falling
rhetoric is neither true nor appropriate in the context
of a petition for certiorari from a fact-bound application of well-established law.

4

In the end, what Petitioners seek is nothing less
than antitrust immunity. But they are making that
request on the wrong side of First Street. If Congress
believed there was a national interest in avoiding antitrust oversight of anticompetitive behavior in college athletics, it would have granted the NCAA’s repeated requests for immunity. Yet it has declined to
do so. To the contrary, Congress and many state legislatures have either adopted or are now considering
proposals to require the NCAA and its members to
roll back their restrictions on athlete compensation,
recognizing the profound inequity of a system that
enables conference executives, athletic directors,
coaches, schools, television networks, and a host of
others to make billions of dollars on the backs of
young, often underprivileged players. One thing is
clear, however: antitrust immunity for college sports
is a question for the legislatures, not the courts. The
current proposals pending in Congress and state legislatures—including the NCAA’s latest request for
antitrust immunity—provide yet another reason for
this Court to decline review.
For these and other reasons, certiorari is even
more inappropriate in this case than it was in
O’Bannon. This Court should deny review.
STATEMENT
A. The Business of College Sports and the
NCAA’s Ever-Changing Definition of
“Amateurism”
The NCAA is a private, membership-based organization that, among other things, seeks to restrain
economic competition in the multi-billion-dollar in-

5

tercollegiate sports industry.1 It accomplishes this
goal through agreements among its member schools,
each of which compete horizontally, both on the field
and off. This competition is particularly fierce in the
relevant economic markets—the labor markets for
Division I men’s and women’s basketball players and
for football players in the FBS, formerly known as
Division I-A.2 In these markets, schools compete for
players’ services in exchange for packages of compensation and benefits. That competition is restrained
by horizontal agreements among NCAA members,
restricting the type and amount of compensation and
benefits—including education-related benefits—that
schools may offer in these markets.
Division I basketball and FBS football have become particularly lucrative enterprises, generating
billions of dollars in annual revenue. For example,
the total value of the NCAA’s current “March Madness” basketball broadcasting contract, which extends
through 2032, is $19.6 billion, while the FBS football
conferences’ current multi-year deal with ESPN for
the College Football Playoff is worth $5.64 billion.
NCAA Pet. App. 68a. At the same time, each conferIn addition to their NCAA membership, most schools are also
members of one of the conferences, which serve as additional
regulators and organizers of intercollegiate athletics. The conferences have authority in areas that overlap with NCAA rules,
such as schedules and rules of the game, and in areas in which
the NCAA does not have a role, such as the sale of the member
schools’ combined media rights for the regular seasons.
1

2 The FBS represents the highest level of college football, consisting of the largest and most competitive NCAA programs.
There are ten conferences and approximately 130 schools in the
FBS. Eleven conferences are among Petitioners in this case; all
but the Western Athletic Conference participate in FBS football.

6

ence negotiates its own regular-season football and
basketball contracts with broadcasters, with the largest conferences generating over $500 million in annual revenue. Id. at 68–69a (explaining that the
Southeastern Conference “made more than $409 million in revenues from television contracts alone in
2017, with its total conference revenues exceeding
$650 million that year”). These massive sums allow
schools to spend lavishly, including on “seven-figure
coaches’ salaries” and “palatial athletic facilities.” Id.
at 17a. Yet the elite athletes in these sports—the
ones whose talent and labor make it all possible—
receive almost none of this revenue.
Although college athletics can be an avocation
that complements and enhances student-athletes’ educational experiences, that could not be further from
the truth in the multi-billion-dollar businesses that
are today’s Division I and FBS football. With so
much money at stake, “coaches and others in the Division 1 ecosystem make sure that Student-Athletes
put athletics first, which makes it difficult for them to
compete for academic success with students more focused on academics. They are often forced to miss
class, to neglect their studies, and to forego courses
whose schedules conflict with the sports in which
they participate.” Id. at 53a (Smith, J., concurring).
Indeed, the district court in this case affirmatively
found that athletes in these markets face significant
barriers that prevent their full integration into the
educational experiences and campus life of other students. Id. at 109a–115a.
While FBS football and Division I basketball mirror their professional counterparts in nearly all respects—including by paying coaches and executives
seven-figure salaries and playing games for television

7

audiences in the midst of a pandemic—the NCAA
continues to cling to the pretext of “amateurism,” insisting that the compensation and benefits available
to student-athletes must be severely constrained to
avoid “eliminating the procompetitive distinction between college and professional sports”—which, it
claims, would hamper consumer demand. NCAA Pet.
33. Yet the district court found—based on testimony
by Petitioners’ own witnesses, among other evidence—that the critical factor that “drives demand”
for college sports today is not the lack of compensation but rather the athletes’ status as students at a
particular school. NCAA Pet. App. 21a. As the district court explained, “[d]efense lay witnesses * * *
testified that consumer demand for Division I basketball and FBS football is driven by consumers’ perception that student-athletes are, in fact, students.”
Id. at 107a.3
Despite this, NCAA members have adopted detailed compensation and benefit restraints that have
nothing to do with requiring that athletes remain
students. In fact, the district court found, as a factual matter, that the specific restraints at issue here—
limits on benefits related to education—“do not appear to be set * * * based on considerations of consumer demand.” Id. at 145a. Instead, the NCAA’s
own representatives testified that the rules are based
on “cost considerations.” Ct. App. ER641.
3 Critically, the student-athletes here do not challenge Petitioners’ academic eligibility requirements. Further, the injunction
concerns only the rules restricting competition for educationrelated benefits that schools may offer Division I basketball and
FBS football players—benefits that actually enhance the athletes’ status and experience as students. NCAA Pet. App. 121a.

8

The rest of the trial record confirms this. Over the
years, the compensation and benefits available to
student-athletes in Division I basketball and FBS
football have changed and increased, reflecting fundamental shifts in the NCAA’s view of “amateurism”—and yet there has been no negative impact on
demand for college sports. Quite the opposite. This
incongruence led the lower courts to find, as a factual
matter, that in the present day, the NCAA’s rules “‘do
not follow any coherent definition of amateurism.’”
Id. at 19a (quoting district court).
This case does not represent the first time that
the NCAA has defended its rules as essential to “amateurism” and preserving college sports, only to find
that even without such rules, consumer demand remains as strong as ever. In Board of Regents, for example, the NCAA warned that competition among
schools to sell their broadcast rights would pose an
existential threat to amateurism and consumer demand.4 Today such competition flourishes and, as a
result, college athletics generates billions in broadcast revenue, without any negative impact on demand. In Law v. NCAA, the NCAA resisted allowing
unrestrained competition among schools to compensate assistant basketball coaches, contending that it
was contrary to the collegiate model.5 Today such
competition is permitted, with assistant coaches often

468 U.S. at 119 (rejecting NCAA argument that restricting sale
of broadcast rights was necessary “to preserve amateurism”).
4

5 134 F.3d 1010, 1021–24 (10th Cir. 1998) (rejecting NCAA’s
proposed procompetitive justifications for restricting assistant
coach salaries).

9

earning millions,6 and demand still thrives. In White
v. NCAA, the NCAA opposed allowing schools to compete with one another by offering full cost-ofattendance scholarships, calling such compensation
“pay for play.”7 Today such competition is permitted;
cost-of-attendance scholarships and even compensation above the cost of attendance are pervasive, and
demand still thrives. NCAA Pet. App. 19a–20a. And
in O’Bannon, the NCAA decried payments to studentathletes in exchange for the use of their names, images, and likenesses as “anathema to amateurism”
and warned that such payments would “blur the clear
line between amateur college sports and their professional counterparts.”8 Today the NCAA—under pressure from state legislatures and Congress—has decided that such payments are consistent with its amateurism model and should be permitted.9
As this history and the factual record make clear,
“amateurism” is a moving goalpost; it is whatever Petitioners say it is at any given time. In Division I
basketball and FBS football, it is little more than a
pretext. It is certainly not a Sherman Act concept,
much less a get-out-of-jail-free card that insulates
any particular set of NCAA restraints from scrutiny.
Between 2009 and 2015, for example, the salaries of assistant
men’s basketball coaches increased by nearly 40%. C.A. ER701.
6

7 NCAA Mem. P. & A. in Supp. Summ. J. at 28, White v. NCAA,
No. 06-cv-999 (C.D. Cal. Oct. 22, 2007), ECF No. 220.

Br. for NCAA at 57, O’Bannon v. NCAA, No. 14-16601 (9th Cir.
Nov. 14, 2014), ECF No. 13-1.
8

9 See NCAA Board of Governors Federal and State Legislation
Working Group, Final Report and Recommendations (Apr. 17,
2020), https://tinyurl.com/yxq8rtd9.

10

B. District Court Proceedings
Recognizing the immense economic disparity between the NCAA’s ever-growing FBS football and Division I basketball enterprises and the studentathletes who drive them, a group of football players
and men’s and women’s basketball players filed this
suit against the NCAA and its largest athletic conferences, challenging the rules that restrict studentathlete compensation. The student-athletes contended that without these restrictions, they would be
compensated at a level more commensurate with the
value they confer on their schools, conferences, and
the NCAA.
While the case was pending, the Ninth Circuit issued its decision in O’Bannon—an antitrust challenge brought against the NCAA (but not the conferences) by a class of current and former football and
men’s (but not women’s) basketball players. These
players challenged NCAA rules that prohibited compensation for the use of their names, images, and
likenesses in game footage or videogames. As relevant here, O’Bannon reaffirmed what this Court and
many others had held—that the NCAA’s rules are
subject to antitrust challenge. Based on a careful review of the factual record in that case, the Ninth Circuit affirmed an injunction permitting schools to use
revenues generated from the use of athletes’ names,
images, and likenesses to increase the NCAA’s scholarship limit and fund athletes’ full cost of attendance—a federally defined measure of a student’s cost
to attend school.
The O’Bannon parties each filed petitions for writ
of certiorari, with the NCAA’s petition resting on virtually identical grounds as the petitions here. See,

11

e.g., Pet. for a Writ of Certiorari, NCAA v. O’Bannon,
No. 15-1388, 2016 WL 2866087, at 10 (U.S. May 13,
2016) (“O’Bannon Pet.”) (“the Ninth Circuit disregarded Board of Regents”); id. at 10–11 (“the Ninth
Circuit set aside the restraint because it was not the
least restrictive one possible”) (emphasis in original);
id. at 15–16 (“American Needle—citing Board of Regents—reaffirmed that restraints essential to a jointventure product” should be upheld); id. at 16–18 (contending that the Ninth Circuit’s decision “departs
from other circuits’ precedent,” which holds that
“NCAA amateurism rules should be upheld without
detailed rule-of-reason analysis (let alone a trial)”);
id. at 26 (“The decision below will only increase the
frequency of [antitrust] challenges” faced by the
NCAA); id. at 27 (“The need for review is particularly
strong given the nationwide scope and importance of
college athletics”). Both parties’ petitions were denied. 137 S. Ct. 277 (2016).
Following the Ninth Circuit’s O’Bannon decision,
Petitioners here moved for judgment on the pleadings, arguing that O’Bannon foreclosed the claims in
this case as a matter of res judicata. The district
court denied the motion because, among other things,
this case involves a different set of horizontal compensation restraints, and the factual record on competition in the relevant markets had changed substantially since O’Bannon. The petitions here do not
challenge that ruling.
After discovery, the parties cross-moved for summary judgment. The district court again rejected Petitioners’ preclusion arguments. On the merits, the
court granted summary judgment in favor of the
players in part, finding no genuine issue of fact as to
whether the challenged rules substantially restricted

12

competition in the relevant markets. In rendering
that decision, the court adopted—at the request of
both parties—a market definition consisting of the
national markets for athletes’ labor in Division I basketball and FBS football. NCAA Pet. App. 75a–76a.
(On appeal, Petitioners did not—and do not now—
contest the court’s findings relating to anticompetitive effect and the relevant market.) As for the rest
of the motion, the court found that triable issues remained at the second and third steps of the rule of
reason.
After a ten-day bench trial—reflecting a starkly
different factual record from any prior antitrust case
concerning NCAA rules—the district court entered
judgment in favor of the plaintiff classes. The court
held that the limits on education-related benefits did
not serve any procompetitive purpose, including the
NCAA’s professed purpose of preserving the distinction between college and professional sports. Id. at
109a. Specifically, the court found that the NCAA
has defined its product as distinct from professional
sports by ensuring that student-athletes are not allowed to receive unlimited, non-education-related
cash compensation like professional athletes and that
they maintain “student” status. Id. at 121a. Yet the
NCAA continues to impose caps and prohibitions on
education-related benefits that do not serve that purpose and do not preserve consumer demand—benefits
like computers, science equipment, musical instruments, post-graduate scholarships, tutoring, study
abroad, academic awards, and internships. Indeed,
the court found as a factual matter that market competition to provide the best package of educationrelated benefits will only reinforce the perception

13

that student-athletes are students—which, again, is
the critical driver of consumer demand. Ibid.
Still, the court found that there “may” be a limited
pro-competitive justification for “some” of the challenged restraints, to the extent they preserve the distinction between college and professional sports by
preventing unlimited payments that are unrelated to
education. Id. at 147a. But the court went on to find
that the students had proven a less restrictive alternative to achieve that goal—a system in which the
restrictions on education-related benefits are eliminated, leaving individual conferences to decide
whether and to what degree any demand-enhancing
limitations on educational benefits are warranted at
the conference level. Id. at 151a–159a.
As a remedy, the district court enjoined the NCAA
from maintaining national rules capping educationrelated compensation and benefits, while otherwise
leaving the NCAA as the legislator of its own rulebook. The injunction permits the NCAA to establish
its own definition of “related to education” and allows
individual conferences to impose their own, more
stringent education-related compensation caps. Id. at
168a. It also requires the NCAA to permit schools
and conferences to offer academic and graduation incentive awards, with any cap on such awards set no
lower than the amount the NCAA allows for athletics-based awards. Id. at 168a–169a.
Following the decision, NCAA President Mark
Emmert publicly lauded the injunction as “‘an inherently good thing’” and not in any way fundamentally
inconsistent with the NCAA’s principles, as it would
foster competition among conferences and schools
“‘over who can provide the best educational experi-

14

ence.’” Id. at 42a (Ninth Circuit decision, quoting Associated Press, Emmert: Ruling reinforced fundamentals of NCAA, ESPN (Apr. 4, 2019)).
C. The Ninth Circuit’s Opinion
Reviewing the trial record in its entirety, the
Ninth Circuit panel unanimously affirmed the district court’s findings and injunction.
The court began by noting that “[a]ntitrust decisions are particularly-fact-bound” and affirmed the
district court’s holding that O’Bannon had no preclusive effect on this case, which involved a fundamentally different factual record. NCAA Pet. App. 27a.
Next, the Ninth Circuit described the traditional
rule of reason “three-step framework”:
(1) [the] Student-Athletes bear the initial burden of showing that the restraint produces significant anticompetitive effects within the relevant market; (2) if they carry that burden, the
NCAA must come forward with evidence of the
restraint’s procompetitive effects; and (3) [the]
Student-Athletes must then show that any legitimate objectives can be achieved in a substantially less restrictive matter.
Id. at 33a (citations and quotations omitted).
The Ninth Circuit found the district court’s factual
and legal conclusions to be well-grounded at every
step. At step one, it held that the “district court
properly concluded that the Student-Athletes carried
their burden” to show significant anticompetitive effects, noting that the district court’s findings “have
substantial support in the record.” Id. at 33a–34a (citations and quotations omitted). At step two, the
Ninth Circuit held that the district court “properly

15

‘credit[ed] the importance to consumer demand of
maintaining a distinction between college and professional sports,’” while also finding that while “some of
the challenged rules” may serve a procompetitive
purpose, the limits on “‘non-cash education-related
benefits’” do not. Id. at 34a–35a (quoting district
court, emphasis in original). Finally, at step three,
the Ninth Circuit confirmed that “it [w]as the Student-Athletes’ burden to make a strong evidentiary
showing that their proposed [less restrictive alternatives] to the challenged scheme are viable”—that is,
“virtually as effective as the challenged rules in
achieving the only procompetitive effect” that Petitioners had shown. Id. at 40a, 66a. The district court
had correctly allocated the burden of proof on this issue, rejecting two of the student-athletes’ three proffered “less restrictive alternatives.” Id. at 22a; see also id. at 46a (“The [district] court’s findings at step
three are supported by the record, and certainly not
clearly erroneous.”). As the Ninth Circuit explained,
its assessment of the entire record led it to hold that
“the district court properly applied the Rule of Reason in determining that the enjoined rules are unlawful restraints of trade.” Id. at 7a.
Two days before the mandate was set to issue, Petitioners moved the Ninth Circuit for a stay, claiming
they would be irreparably harmed if they were required to permit additional education-related benefits. After the Ninth Circuit summarily denied the
motion, Petitioners unsuccessfully sought a stay from
this Court, based on the same arguments. The mandate issued on August 12, 2020.
Despite their claimed irreparable injury, Petitioners waited until October 15—a full two months after

16

the mandate, and the last possible day under the
Court’s rules—to file their petitions.
REASONS FOR DENYING THE PETITIONS
I.

The decision below is entirely consistent
with this Court’s precedents.

As in the NCAA’s petition in O’Bannon, Petitioners here incorrectly contend that Board of Regents
prohibits a court from conducting a fact-based rule-ofreason inquiry for any rule they adopt in the name of
“amateurism.” Compare AAC Pet. 20–21 and NCAA
Pet. 17–18 with O’Bannon Pet., 2016 WL 2866087, at
*17 (“Board of Regents and American Needle [v. NFL,
560 U.S. 183 (2010)] mean that NCAA rules that define what it means to be an amateur or a studentathlete should be sustained in the twinkling of an
eye—that is, at the motion-to-dismiss stage”) (citation
and quotation omitted). According to Petitioners,
Board of Regents established this rule to preserve
their “‘ample latitude’” to oversee college sports.
Compare NCAA Pet. 19 with O’Bannon Pet., 2016
WL 2866087, at *11.
This Court’s cases say no such thing. To the contrary, the Board of Regents Court squarely held that
NCAA rules are subject to antitrust scrutiny under
the rule of reason. 468 U.S. at 103–04. Even Petitioners themselves describe Board of Regents that
way, stating that “[i]n that case, this Court explained
that because league sports are ‘an industry in which
horizontal restraints on competition are essential if
the product is to be available at all,’ NCAA rules
should be evaluated for antitrust purposes under the
rule of reason, rather than deemed illegal per se. 468
U.S. at 100–101.” NCAA Pet. 9; see id. at 17 (“This
Court held in Board of Regents that NCAA rules

17

would be evaluated under the rule of reason * * * .”).
Applying the rule of reason, the Board of Regents
Court ultimately ruled against the NCAA, holding
that the restraint at issue was unreasonable in light
of the specific facts found at trial. 468 U.S. at 120.
The district court here faithfully followed Board of
Regents and applied the rule of reason to the facts.
After holding that the complaint sufficiently stated a
claim, the court supervised discovery, compiled an
evidentiary record, evaluated the parties’ motions for
summary judgment, found genuine issues of material
fact, and held a two-week trial. Then the court issued
a 102-page decision applying the rule of reason to the
facts presented, finding that the challenged rules
were anticompetitive and unlawful. The Ninth Circuit appropriately reviewed this factual conclusion
deferentially, finding no clear error. Again, this is
precisely what happened in Board of Regents itself, in
which this Court reviewed a lower court’s application
of the rule of reason to a set of NCAA rules after a
trial and affirmed an order enjoining them.
To be sure, Board of Regents also discussed the
NCAA generally, commenting that the NCAA was
perceived to play a “critical role in the maintenance of
a revered tradition of amateurism in college sports.”
468 U.S. at 120. The Court also observed—notably,
in an entirely different era in college sports—that it
was “reasonable to assume that most * * * NCAA
[rules] are justifiable means of fostering competition
among amateur athletic teams and therefore procompetitive.” Id. at 117. But nothing in Board of Regents
indicates that the Court intended this observation to
function as binding legal doctrine and to prevent
judges decades into the future from evaluating
whether such an “assum[ption]” remained “reasona-

18

ble,” no matter how much the factual circumstances
changed.
And changed they have. The facts in the relevant
markets bear no resemblance to what the Board of
Regents Court understood at that time about the
NCAA and the tradition of “amateurism.” As discussed above, the business of Division I basketball
and elite football has grown exponentially in the last
three decades, becoming a massive, multi-billion dollar industry on the backs of unpaid students who
would obtain far more compensation for their labor in
a competitive market. Moreover, the trial record below established that in the years since Board of Regents, the NCAA has abandoned “any coherent definition” or tradition of amateurism in Division I basketball and FBS football, allowing significant changes in
the compensation that schools are allowed to provide.
NCAA Pet. App. 92a; see also id. at 144a (“amateurism, and amounts of permissible student-athlete
compensation have changed materially over time”).
Petitioners’ position gains no more support from
American Needle—a case that also formed the basis
of their unsuccessful petition in O’Bannon. Compare
NCAA Pet. 17 (quoting American Needle, 560 U.S. at
203) with O’Bannon Pet., 2016 WL 2866087, at *12
(same). In American Needle, a unanimous Court rejected the NFL’s argument for antitrust immunity
and held that the challenged acts were concerted activity subject to the rule of reason. 560 U.S. at 203.
The Court explained that “[w]hen ‘restraints on competition are essential if the product is to be available
at all,’ per se rules of illegality are inapplicable, and
instead the restraint must be judged according to the
flexible Rule of Reason.” Id. (quoting Board of Re-

19

gents, 468 U.S. at 101). That is precisely what the
courts did in this case.
To be sure, Board of Regents and American Needle
observe that the rule of reason “‘can sometimes be
applied in the twinkling of an eye’”—that is, without
a “detailed analysis”—depending on “the concerted
activity in question.” American Needle, 560 U.S. at
203 (quoting Board of Regents, 468 U.S. at 109 n.39).
But this is far from a substantive presumption in the
NCAA’s favor. In Board of Regents, the Court used
the phrase “twinkling of an eye” to explain that some
restraints may be so obviously anti-competitive that
they can be summarily struck down. 468 U.S. at 109
n.39. And when the Court repeated that phrase in
American Needle, it also specifically rejected the
NFL’s plea for antitrust immunity, declining to prescribe a “twinkling of an eye” approach to the restrictions in that case and instead remanding for a
rule-of-reason analysis, with the observation that
competition for “playing personnel” is an area where
horizontal agreements must be subject to the rule of
reason. 560 U.S. at 203. Neither of these cases establishes a presumption in a sports league’s favor,
and neither suggests that it would ever be error to
apply the rule of reason on a full factual record, as
the district court did here.
In any event, the Ninth Circuit here was not
asked to (and did not) address any legal question
about “presumptions” under Board of Regents or
American Needle. Instead, it followed this Court’s direction and reviewed the district court’s factual application of the rule of reason for clear error, finding
none. Petitioners may disagree with the courts’ factual conclusions, but their disagreement does not
warrant this Court’s review.

20

II.

The decision below does not implicate
any conflict among the Courts of Appeals.

Petitioners similarly regurgitate the same arguments about the same alleged conflict of circuit authority that they raised in their unsuccessful
O’Bannon petition. All but one of the decisions Petitioners cite for the purported split occurred before the
O’Bannon petition and were cited there too. Compare
NCAA Pet. 19–23 and AAC Pet. 23–25 with
O’Bannon Pet., 2016 WL 2866087, at *16–18 (citing
Agnew v. NCAA, 683 F.3d 328 (7th Cir. 2012);
McCormack v. NCAA, 845 F.2d 1338 (5th Cir. 1998);
Smith v. NCAA, 139 F.3d 180 (3d Cir. 1998)). The
one exception is Deppe v. NCAA, 893 F.3d 498 (7th
Cir. 2018), which, as discussed below, applied the
rule articulated in Agnew and is thus a postO’Bannon decision that applied pre-O’Bannon law.
And, in any event, none of the cases relied upon by
Petitioners presents any conflict with the Ninth Circuit’s decision here.
In Smith, a case from the 1980s, the Third Circuit
considered an NCAA rule that involved an athlete’s
status as a student at the institution—a very different kind of rule than the ones at issue here. See 139
F.3d at 183 n.2 (quoting challenged NCAA rule). The
court held that the rule did not “relate[] to the
NCAA’s commercial or business activities” and thus it
did not fall under the Sherman Act in the first place.
Id. at 185–86. And—critically—the court confirmed
that if the Sherman Act did apply, it “would analyze
[the rule] under the rule of reason.” Id. at 186. Although the court proceeded to cite this Court’s thenrecent observations in Board of Regents, it did not
hold that Board of Regents controlled the disposition
as a matter of law; it simply concluded that “the by-

21

law [in question] so clearly survives a rule of reason
analysis” that the claim could be resolved on a motion
to dismiss. Id. at 187.
McCormack—the only decision in another circuit
that addressed limits on compensation to players—
also applied the rule of reason to a particular set of
factual allegations. 845 F.2d at 1343. But the Fifth
Circuit did not read Board of Regents to immunize
the rule from antitrust scrutiny or to establish a presumption in favor of any particular NCAA rule. It
noted the NCAA’s argument on that point but found
that it “need not address” the issue because of the
sparsity of the plaintiffs’ allegations, which could not
support a claim under the rule of reason. Ibid.
In Agnew, the Seventh Circuit theorized that
there may be a presumption under Board of Regents
that certain classes of NCAA rules are lawful, but it
declined to apply any presumption to the NCAA rules
before it, which limited the number and length of athletic scholarships. 683 F.3d at 343–44. The court
reasoned that such rules “are not inherently or obviously necessary for the preservation of amateurism,
the student-athlete, or the general product of college
football.” Id. at 344. While the NCAA argued that
such rules are necessary for parity between more
wealthy and less wealthy schools, the court rejected
that argument, noting that the claim was “weakened”
by the then-recent genesis of those rules and the fact
that they were recently rescinded. Ibid. In the
court’s assessment, the challenged rules—like the
ones at issue here—“seem[ed] to be aimed at containing university costs, not preserving the product of college football.” Ibid. Thus, the court declined to apply
any presumption of lawfulness at the pleading stage,
explaining that the NCAA’s argument was “far too

22

great a leap to make without evidentiary proof at the
full Rule of Reason stage.” Ibid.
The only post-O’Bannon case cited by Petitioners
is Deppe, in which the Seventh Circuit explicitly applied the rule it had previously set out in Agnew. 893
F.3d at 503–04. Thus, while the decision in Deppe is
new, the Seventh Circuit’s approach is not. And, critically, the kinds of NCAA rules at issue in Deppe
were even further afield from the rules challenged
here than the rules in Agnew were. Compare Deppe,
493 F.3d at 502 (rule requiring athlete to spend a
year enrolled at institution before being eligible to
participate in athletics) with Agnew, 683 F.3d at 344
(rules limiting number and extent of scholarships).
Because the eligibility rule in Deppe was academicsdriven, the Seventh Circuit applied the presumption
of lawfulness it had outlined in Agnew but had declined to apply in that case. 893 F.3d at 502.
Still, it is wrong to say that this case “would have
come out differently if decided by the Seventh Circuit.” AAC Pet. 24. The rules at issue here are far
more like the ones at issue in Agnew, which related to
scholarships—an education–related benefit that conferences or schools may choose to provide. Further, as
in Agnew, the rules here “seem to be aimed at containing university costs, not preserving the product of
college football.” 683 F.3d at 344; see NCAA Pet. App.
145a, 148a–149a n.42 (challenged rules were based
not on consumer demand but on cost). Thus, there is
every reason to believe that the Seventh Circuit
would agree with the Ninth that the rules in this case
are subject to a full, rigorous analysis under the rule
of reason. Indeed, these are exactly the type of anticompetitive agreements for which no procompetitive
presumption would ever be proper. See P. Areeda &

23

H. Hovenkamp, Antitrust Law: An Analysis of Antitrust Principles and Their Application, ¶ 1902a (4th
ed. 2018) (explaining that “[h]orizontal agreements
are antitrust’s most ‘suspect’ classification, which as
a class provoke harder looks than any other arrangement,” and referring to “naked price fixing” as
one of “the most threatening circumstances” to free
competition).
Nor is there any inconsistency between the decision below and the Third Circuit’s decision in Race
Tires America, Inc. v. Hoosier Racing Tire Corp., 614
F.3d 57 (3d Cir. 2010), cited in NCAA Pet. 3–4. The
Race Tires decision does not suggest antitrust immunity, as Petitioners suggest; instead, it confirms
that sports sanctioning bodies are required to prove
“good faith, sufficient pro-competitive or business justifications” for their rules, based on the facts of the
case. Id. at 81. Moreover, the Third Circuit explicitly warned against “establish[ing] an overly broad rule
detached from the specific facts” because of the “highly fact-specific nature of the antitrust standards.” Id.
at 80. This is the opposite of establishing some kind
of presumption.
Finally, even if there were some tension among
the circuits—and there is none—this case would be a
poor vehicle for resolving it. The Ninth Circuit was
never asked to rule on whether the rules challenged
here should have been afforded a presumption of lawfulness rather than analyzed under the rule of reason. And, again, the rules in this case are far more
like Agnew’s limits on scholarships—to which the
Seventh Circuit refused to apply any presumption—
than they are like Deppe’s year-in-residence rule.
Thus, if there is any real disagreement between the
Seventh Circuit and the Ninth—and the cases thus

24

far do not reflect one—that disagreement would not
make a difference in this case.
III.

The decision below faithfully applied the
rule of reason framework.

Contrary to Petitioners’ assertions (e.g., AAC Pet.
15–19), the Ninth Circuit carefully applied the traditional rule of reason framework based on wellestablished precedent. As this Court recently reaffirmed, the rule of reason involves a “three-step, burden shifting framework”:
[T]he plaintiff has the initial burden to prove
that the challenged restraint has a substantial
anticompetitive effect that harms consumers in
the relevant market. If the plaintiff carries its
burden, then the burden shifts to the defendant to show a procompetitive rationale for the
restraint. If the defendant makes this showing
then the burden shifts back to the plaintiff to
demonstrate that the procompetitive efficiencies could be reasonably achieved through less
anticompetitive means.
Ohio v. American Express Co., 138 S.Ct. 2274, 2284
(2018) (citations omitted).
Petitioners’ only legal objection to the Ninth Circuit’s analysis is their suggestion that it “effectively
requir[ed] defendants to prove that they had adopted
the least restrictive alternative that would preserve
college sports.” AAC Pet. 15. But the Ninth Circuit
did no such thing. Instead, it held unequivocally that
it was the “Student-Athletes’ burden to make a strong
evidentiary showing” on less restrictive alternatives.
NCAA Pet. App. 40a (emphasis added, quotation
omitted). It further held that a court may “invalidate
a restraint and replace it with [a less restrictive al-

25

ternative] only if the restraint is ‘patently and inexplicably stricter than is necessary to accomplish all of
its procompetitive objectives’”—and that Plaintiffs
bore the burden to demonstrate that a significantly
less restrictive alternative was available. Id. at 33a
(citation and quotation omitted).
Applying the traditional standard, the court held
that “the district court reasonably concluded that
market competition in connection with educationrelated benefits will only reinforce consumers’ perception of student-athletes as students, thereby preserving demand.” Id. at 43a. That conclusion was based
on the district court’s detailed factual findings, including that the “NCAA’s ‘own witnesses’ testified
that ‘consumer demand for [D1] basketball and FBS
football is driven largely by consumers’ perception
that student-athletes are, in fact, students.’” Ibid. (alteration in original).
Again, the Ninth Circuit did not establish any new
legal principle; this is the same test that the court
applied in O’Bannon and that this Court reaffirmed
in Ohio v. American Express just two years ago.
None of this presents any unsettled legal question
that requires this Court’s review.
IV.

The decision below turns on fact-bound
conclusions after a lengthy bench trial.

The nature of the Ninth Circuit’s decision further
undermines Petitioners’ request for certiorari. The
decision does not set forth any new or remarkable
principles of law. Instead, the only significant issues
of law before the court had to do with Petitioners’ unsuccessful argument that the claims in this case were
precluded by O’Bannon under principles of stare decisis and res judicata—issues that Petitioners have de-

26

clined to raise here. See AAC Pet. 13 n.4.
With respect to the petitions, then, all that is at
issue is the Ninth Circuit’s appropriately deferential
review of the district court’s application of the rule of
reason, based on the trial record in its entirety. This
is an inherently fact-specific analysis. See Leegin
Creative Leather Prods., Inc. v. PSKS, Inc., 551 U.S.
877, 899 (2007) (discussing the “case-by-case adjudication contemplated by the rule of reason”); Maple
Flooring Mfrs.’ Ass’n v. United States, 268 U.S. 563,
579 (1925) (“[E]ach case arising under the Sherman
Act must be determined upon the particular facts disclosed by the record”). The facts may change over
time, requiring a new evaluation. Leegin, 551 U.S. at
899 (Sherman Act’s prohibitions on restraints of
trade “evolve to meet the dynamics of present economic conditions”); Areeda & Hovenkamp, supra,
¶ 1205c3 (“[C]ontinuing contracts in restraint of trade
* * * are typically subject to continuing reexamination,” and “even a judicial holding that a particular
agreement is lawful does not immunize it from later
suit or preclude its reexamination as circumstances
change.”).
On its face, the Ninth Circuit’s decision expressly
turned on “deferen[ce]” to specific factual findings
and an “examin[ation of] the record ‘in its entirety.”
NCAA Pet. App. 44a (citation omitted). This was entirely appropriate—and, in any event, involves factbased decisionmaking not appropriate for this Court’s
review.
V.

The decision below has no implications
for joint ventures.

Petitioners insist that absent review by this
Court, the decision below “endors[es] an antitrust

27

standard that puts at risk many legitimate and procompetitive joint ventures.” AAC Pet. 27; see also
NCAA Pet. 29 (the decision below “will have sweeping
detrimental consequences for college sports and joint
ventures more generally”). Not so. Far from being a
“joint venture,” Petitioners and their member schools
are direct, horizontal competitors in the relevant
markets at issue in this case—the labor markets in
Division I basketball and FBS football.
The relevant antitrust markets in this case were
identified based on undisputed evidence at the summary judgment phase and left unchallenged by Petitioners on appeal. They are the “national markets for
Plaintiffs’ labor in the form of athletic services in
men’s and women’s Division I basketball and FBS
football, wherein each class member participates in
his or her sport-specific market.” NCAA Pet. App.
137a. “In these markets, the class-member recruits
sell their athletic services to the schools that participate in Division I basketball and FBS football in exchange for grants-in-aid and other compensation and
benefits.” Id at 137a–138a.
In these markets, the NCAA’s members are competitors, not joint venturers producing a common
product. Petitioners point to no findings in the record
establishing that the NCAA’s thousands of disparate
and diverse members comprise a joint venture in the
relevant labor markets. Indeed, the term “joint venture” cannot be found in either the district court’s or
Ninth Circuit’s decisions.
As this Court observed about the NFL in American Needle,
[t]he fact that [NCAA schools] share an interest in making the entire league successful and

28

profitable, and that they must cooperate in the
production of scheduling of games, provides a
perfectly sensible justification for making a
host of collective decisions. But the conduct at
issue in this case [that is, agreements to constrain horizontal competition] is still concerted
activity under the Sherman Act that is subject
to § 1 analysis.
560 U.S. at 202–03; see also Board of Regents, 468
U.S. at 113–14 (rejecting NCAA’s proffered justification “that its television plan constitutes a cooperative
‘joint venture’ which assists in the marketing of
broadcast rights and hence is procompetitive”); Law,
134 F.3d at 1018 n.10 (rejecting NCAA’s proffered
“joint venture” defense in antitrust challenge to
NCAA rules capping compensation for assistant
coaches).
Further, even if the decision below somehow did
relate to the antitrust treatment of joint ventures, the
NCAA’s concern about it is misplaced. It is already
well established that joint venture agreements are
susceptible to antitrust challenge and must be analyzed under the rule of reason. As this Court has explained, because “[j]oint ventures * * * are [] not usually unlawful,” these agreements should not be held
per se illegal but rather “should be subjected to a
more discriminating examination under the rule of
reason.” Broadcast Music, Inc. v. CBS, Inc., 441 U.S.
1, 23–24 (1979) (noting the agreements “may not ultimately survive that attack”).
Finally, and again, the NCAA raised these same
supposed joint venture concerns in its unsuccessful
O’Bannon petition. E.g., 2016 WL 2866087, at *3
(“The Ninth Circuit’s ruling jeopardizes the vitality of

29

not only the NCAA and other amateur sports leagues,
but also joint ventures more generally”). They are no
more worthy of this Court’s review today.
VI.

The ongoing legislative efforts in this
area make this case particularly
unsuitable for review.

Finally, even if there were some need for clarification in the antitrust laws as they apply to NCAA
rules, this would be the wrong time for the Court to
weigh in, given the ongoing legislative efforts in this
area. In recent months, federal and state legislatures
have either enacted or considered laws that would
allow student-athletes to be paid for the use of their
names, images, and likenesses. Five states have already passed such laws, with Florida’s scheduled to
go into effect on July 1, 2021. And numerous other
states have considered or are considering similar
bills. Congress is also heavily involved, with bills
currently pending in both the House and the Senate,
and hearings on student-athlete compensation held
by two Senate committees in just the past several
months.
Petitioners are actively participating in this legislative process—even proposing their own legislation.
See Ltr. from Power Five Comm’rs to Cong. Leadership at 1 (May 23, 2020)10 (“We share the view that
federal legislation should be enacted to permit Division I student-athletes to pursue payment from third
parties for NIL licensing.”); R. Dellenger, NCAA Presents Congress with Bold Proposal for NIL Legisla10
https://assets.documentcloud.org/documents/6933292/PowerFive-letter-to-Congress.pdf.

30

tion, SPORTS ILLUSTRATED (July 31, 2020)11 (discussing the NCAA’s proposed Intercollegiate Amateur
Sports Act of 2020). Indeed, despite their strenuous
opposition in O’Bannon to compensation for the use of
players’ names, images, and likenesses, Petitioners
have now reversed course and embraced such compensation and are expected to permit it as soon this
winter. With the definition of “amateurism” in a
state of flux and the legislative branch already actively engaged, certiorari would be particularly inappropriate.
Petitioners’ legislative proposals also advocate for
effectively the same antitrust immunity that they
seek from this Court. See May 23 Ltr. at 1 (proposing
that federal legislation include “protection from potential legal liability under antitrust and other
laws”). One currently pending Senate bill has a safe
harbor for the NCAA and its members. See Fairness
in Collegiate Athletics Act, S.4004, § 4(b) (2020) (except for enforcement by the Federal Trade Commission, “no cause of action shall lie or be maintained in
any court against any intercollegiate athletic association, or any institution of higher education which is a
member of such association for the adoption or enforcement of a policy, rule, or program established
under” the proposed legislation).
In the end, whether through changes by the
NCAA’s members, by Congress, or by state legislatures, the “amateurism” model is once again in the
midst of a paradigm shift. Even if certiorari were
11
https://www.si.com/college/2020/07/31/ncaa-sends-congressnil-legislation-proposal.

31

otherwise warranted, this would be the wrong time
for the Court to intervene.
CONCLUSION
The courts below applied the well-established rule
of reason to a particular set of facts, finding—based
on a full trial record—that the agreement of NCAA
members to restrict education-related benefits is an
unreasonable restraint of trade. Petitioners’ argument essentially seeks antitrust immunity—a request that should be directed to Congress, not to this
Court. The writ should be denied.
Respectfully submitted.
STEVE W. BERMAN
CRAIG R. SPIEGEL
EMILEE N. SISCO
Hagens Berman Sobol
Shapiro LLP
1301 Second Ave., Ste. 2000
Seattle, WA 98101
BRUCE L. SIMON
BENJAMIN E. SHIFTAN
Pearson, Simon &
Warshaw LLP
350 Sansome St., Ste. 680
San Francisco, CA 94104
ELIZABETH C. PRITZKER
JONATHAN K. LEVINE
BETHANY L. CARACUZZO
Pritzker Levine LLP
1900 Powell St., Ste. 450
Emeryville, CA 94608
NOVEMBER 9, 2020

JEFFREY L. KESSLER
DAVID G. FEHER
DAVID L. GREENSPAN
Winston & Strawn LLP
200 Park Avenue
New York, NY 10166
LINDA T. COBERLY
Counsel of Record
Winston & Strawn LLP
35 W. Wacker Drive
Chicago, IL 60601
(312) 558-5600
lcoberly@winston.com
JEANIFER E. PARSIGIAN
Winston & Strawn LLP
101 California Street
San Francisco, CA
94111

